    March 12, 2002




Testimony

             Statement for the Record
               Robert J. Lieberman
             Deputy Inspector General
               Department Defense
                       to the
        Subcommittee on Technology and
                Procurement Policy
    House Committee on Government Reform
                         on
The Services Acquisition Reform Act (SARA) of 2002


           Hearing Date: March 7, 2002


             Report No. D-2002-064




               Department of Defense
           Office of the Inspector General
 Quality              Integrity        Accountability
   Inspector General, Department of Defense, Comments on the
           Service Acquisition Reform Act (HR 3832)


Section 103 and 104. Government Industry Exchange Program and
Reimbursement of Costs. Sections 3702 and 3703 would permit
Government employees, at the GS-11 level, or an equivalent
level, working in the field of Federal acquisition or
acquisition management, who are considered exceptional
performers by their employers, to be detailed to private sector
organizations. The period of such details would be one year
and could be extended for one year. In the case of the agency
employee, there would be a requirement for the agency employee
to serve in the civil service, upon completion of the
assignment, for a period equal to the length of the detail.

We support the goal of promoting the exchange of expertise
between the Government and private industry. However, we have
concerns regarding the proposed initiative and urge that
comments be sought from the Office of Government Ethics and
Office of Personnel Management.

Section 3704 allows the private sector to transfer or detail
employees to the Federal Government while the employee continues
to receive benefits from the private sector. The proposal will
make the private sector employee subject to many ethics
provisions. However, we believe the proposal should be modified
to state that the private sector employees detailed to the
Department cannot perform inherently Governmental functions such
as policy making, supervision of government employees and
acquisition.


Section 107. Authorization of Telecommuting for Federal
Contractors. This section would allow telecommuting by
contractor personnel while working on a Federal contract.
We are not opposed to this section; however, we were not
aware of any current prohibition on telecommuting by
contractor personnel and therefore question the need
for this provision.


Section 202. Increased Role for Defense Contract Management
Agency (DCMA). This section would require the Under Secretary
of Defense for Acquisition, Technology, and Logistics to review
the feasibility of establishing the Defense Contract Management
Agency (DCMA) as the primary organization responsible for
performing contract management services on DoD base operating
service contracts in excess of $5 million.

We do not support the proposed change. The DoD previously
studied the issue when DCMA was established in the early 1990s
and concluded that base operating service contracts can best be
administered by the contracting organization on the base, post,
                                                                  2

camp, or station. In recognition of this fact, the Defense
Federal Acquisition Regulation Supplement (DFARS) 242.202
provides that contract administration functions for base, post,
camp, and station contracts on a military installation are
normally the responsibility of the installation or tenant
commander. The local base commander should have the personnel
responsible for management of the service contracts accountable
to the commander to ensure good performance. We see no reason
to revisit this issue.


Section 204. Statutory and Regulatory Review. This section
requires the Administrator of the Office of Federal Procurement
Policy to convene another panel of acquisition experts to review
statutes and regulations that hinder commercial practices and
performance based contracting, and for the panel to report its
findings within one year. While we support continuing efforts
to promote acquisition reform, we question whether another panel
is needed at this time, particularly given the breadth of the
review conducted previously by the Section 800 panel. If this
provision is pursued, at least two years should be allowed for
the completion of a thorough review of all procurement statutes
and regulations. Our recommendation, however, is to concentrate
on previously initiated reform initiatives and not charter still
another panel to revisit the same laws and regulations.


Section 211. Payment Terms. This provision creates new payment
provisions which differ from the Prompt Payment Act (PPA). The
PPA allows the government 7 days to review and return improper
invoices and 30 days to make payment from the date the invoice
is received (unless otherwise specified in the contract). The
proposal would create special provisions applicable only to
service contractors. Given the payment requirements of the PPA,
as implemented by the Office of Management and Budget at 5 Code
of Federal Regulations 1315.9, we recommend this section be
revised to either be consistent with the PPA, or to specifically
amend the PPA. Given the problems we have observed in numerous
audits regarding compliance with the PPA and related payment
problems by Defense activities, we do not support creating
another set of PPA exceptions which are applicable only to
service contractors.

Paragraph (1) allows service contractors to submit bills
electronically on a biweekly basis. The current requirement
is to submit bills every 30 days.

The DoD has over $56 billion of service contracts. If you also
count research as service contracts, then there is an additional
$21.5 billion. In FY 2001, DoD paid 11.1 million contractor and
vendor invoices valued at $150 billion. If only half of these
payments were affected by this provision, DoD would have to
process an additional 5.5 million invoices and receiving
reports. DoD would need to increase the number of acquisition
                                                               3

staff reviewing invoices and receiving reports and financial
staff reviewing, approving and paying the invoices. In the last
decade the Defense Finance and Accounting Service (DFAS) has
been reduced 37 percent, from 27,000 to 17,000 personnel and
reversal of that trend would be difficult. Because of those
staffing and processing costs, plus a cost due to accelerated
Treasury outlays and related borrowing, the proposal is not
revenue neutral.

Further, the proposal does not address the requirement for
Government activities to submit receiving reports (hand copy or
electronic) to the finance office before payment and the effect
of the receipt date in computing interest for late payments, and
payment dates. If there is no requirement for verification of
the receipt of goods and services, the invoice payments should
be treated as contract financing payments and the date of
Government receipt and acceptance of the service would no longer
be used in computing payment due dates. We do not believe it is
a good public policy to pay invoices before verifying the goods
or services were received.

Paragraph (2) requires that the date of the invoice shall be the
date it is delivered electronically. Currently, under the PPA
the date an invoice is received and date-stamped by the office
designated in the contract to receive the invoice (designated
billing office) is used as the invoice receipt date. Payment
due dates are computed based on the later of the invoice receipt
date, or the date the Government accepts performance of the
service. The PPA requirements, as contained in 5 Code of
Federal Regulations (C.F.R.) 1315.9 and Federal Acquisition
Regulation (FAR) subpart 32.905, require the vendor to place a
date on the invoice. They also require the designated billing
office to date-stamp the invoice or use the transmission receipt
date as the date of receipt. As mentioned above, we believe it
is undesirable to modify payment dates by relaxing the
requirement for the receiving report that the activity accepting
the services must transmit to DFAS.


Section 221. Increase in Authorization Levels of Federal
Purchase Cards. This section would increase the micro-purchase
threshold from $2,500 to $25,000 and is not limited by its
terms to purchases made with Federal purchase cards. This
provision is overly broad and, with respect to purchase cards,
ignores the well documented problems with implementing the
widespread use of cards for micro-purchases. We recently
issued Report No. 2002-029 “Summary of DoD Purchase Card
Coverage” December 27, 2001. The report covered the Purchase
Card Program and identified systemic issues discussed in 382
audit reports issued on the DoD Purchase Card Program from FY
1996 through FY 2001. Systemic issues, defined as problems that
were reported in 10 or more reports, included lack of account
reconciliation and certification, administrative controls,
management oversight, property accountability, separation of
                                                                  4

duties, and training. In addition, our on-going review on
controls over the DoD Purchase Card Program has identified the
need to improve oversight and management controls. Improved
controls are needed regarding selecting cardholders, assigning
approving officials, setting of spending limits, transactions at
“blocked” businesses to which charges are not authorized,
purchases declined by banks, purchases made after card accounts
were closed, and management of convenience checks. We plan to
issue a report with these findings in April 2002. Consequently,
we do not support increasing the authorization level until
improved controls are in place for purchase cards and are
effective in preventing misuse.


Section 224. Architectural and Engineering Services.
Section 224(a) would add a new paragraph to the definition of
Architectural and Engineering (A&E) services to make it include
“surveying and mapping.” Section 224(b) would amend the FAR to
include the new definition in section 224(a). Section 224(c)
would increase the threshold for contracts set aside for small
business for A&E services from $85,000 to $300,000.

In FY 2001, DoD acquired $2.1 billion of A&E services.
Architectural and engineering services are awarded using a
unique process which usually results in an award to the highest
qualified contractor. We do not understand the need for this
change in section 224(a) because the definition of A&E services
at 40 USC 541 (3)(C) already includes surveying and mapping.
We do not believe this amendment is necessary.

There is also no reason to increase the threshold for small
business set asides for A&E services. Current legislation
provides the Secretary of Defense the flexibility to vary the
dollar value threshold whenever needed to ensure that small
business concerns receive a reasonable share of A&E services
contracts. The section 800 Panel reviewed this statute and the
dollar value threshold in 1992 and the drafters of the Federal
Acquisition Streamlining Act also considered the need to revise
the statute. They concluded that no change was needed because
the Secretary of Defense already had adequate flexibility. We
are not aware of any new circumstances that would justify
revisiting those determinations.


Section 301. Revisions to Share-in-Savings Initiatives. The
section allows use of share-in-savings contracts for up to
10 years and permits agencies to retain savings beyond the
amount paid to contractors. The Clinger-Cohen Act previously
authorized pilot share-in-savings programs for Information
Technology projects. Because agencies get to retain funds saved
and not paid to contractors, the proposal creates an environment
for off budget financing of operations. The 10-year length of
the contract is unnecessary and may actually impede further
savings. The periodic expiration of a service contract should
                                                                  5

provide an occasion to spur competition and permit the
Government to obtain a better deal or better technology
than offered by the incumbent. For example, by year 10 the
technology offered by the incumbent can be 7 years out-of-date
but still cheaper than the original Government operation. A
10-year contract may provide little incentive for proposing
significant improvements after the initial proposal to win the
contract. We also have concerns because the DoD does not yet
have the ability to determine the actual current costs of
operations with any certainty. The contracting officer needs
a good cost baseline for calculating improvements against which
benefits can be calculated. Determining the cost of operations
is why public/private competitions often require 2 or more
years. Until the pilot programs currently authorized are
completed, and lessons learned developed, we do not support
the proposal.


Section 302. Incentives for Contractor Efficiency. This
section allows performance periods of 10 years for performance
based service contracts.

We do not support this section because it is unnecessary. The
Department can already award multiple annual options if the
contractor performance is adequate. The Government also
possesses other tools to incentivize exceptional contractor
performance, particularly in the award of incentive and award
fee provisions. We do not believe further incentives are
necessary. As mentioned in comments on section 301, the threat
of competition and the contractor’s desire for the Government
to extend the contract through the exercise of options should
be adequate incentives to spur contractor performance.


Section 402. Authorization of Additional Contract Types in
FAR Part 12. This section would permit use of time-and-
materials, and labor hour contracts for commercial item or
services using Federal Acquisition Regulation (FAR) Part 12
Commercial Item procedures.

We are opposed to this section. Time and material, and labor
hour contracts are the highest risk and least preferred contract
types. Under these types of contracts, contractors have little
incentive to control costs or increase labor efficiencies. In
FY 2001, DoD had $4.8 billion of time and material and labor
hour contracts. We believe the use of these types of contracts
should be discouraged, not expanded.

Inspector General, DoD, Report No. D-2000-100 identified a
multitude of pre-award and post-award problems for service
contracts because of poorly defined requirements on cost and
time-and-material contracts. FAR Part 16 emphasizes that there
is no positive incentive to the contractor for cost control on
cost or time-and-materials contracts. As a result, these types
                                                                  6

of contracts require a high degree of labor intensive
surveillance and are more susceptible to cost growth. Of the
84 cost and time-and-materials contracts reviewed, 25 percent
of these actions experienced cost growth of $80 million and
almost 70 percent of these actions had inadequate surveillance.
Downsizing of the acquisition workforce and streamlining have
created a need to do more with less, but this proposal would
expand the use of time-and-materials contracts that will add
contract surveillance workload to an already strained staff
and would likely only increase problems.


Section 403. Clarification of Commercial Service Definitions.
This is a change in the definition of commercial items that
would equate commercial services with commercial items. We
oppose the change as it is unnecessary and confusing.

The proposal would eliminate 41 USC 403(12)(F), which defines
services as commercial items only if the services are offered
and sold competitively, in substantial quantities, in the
commercial marketplace and are based on established catalog
or market prices for specific tasks performed under standard
commercial terms and conditions. It could allow a contractor
to claim any service, including research and development, as
commercial if the contractor claims it plans to sell the service
in the future to the public.

Under the current statute, a determination must be made that the
service is actually commercially available to the public. This
is not a difficult test. The current definition of commercial
services is a very reasonable definition with safeguards to
prevent purchasing noncommercial services such as cleanup of
radioactive waste by the Department of Energy or acquisition of
never before performed applied research for the DoD. Inspector
General, DoD, Report No. D-2001-051 “Use of Federal Acquisition
Regulation Part 12 Contracts for Applied Research,” February 15,
2001, explains the above examples and shows why FAR Part 12
contracts should not be used for acquiring military unique
research and development. Pages 13, 14, and 15 of the report
show why the Department will pay more for the same research
including large profit rates.

We also believe the proposed change is inappropriate because
it attempts to graft commercial services to that portion of
the commercial item definition which was enacted to apply to
supplies. Services were specifically and separately defined
at 41 USC 403(12)(F), as what constitutes commercial services
differs from supplies. We also oppose the change because the
current definition regarding commercial services is more than
adequate. It permits services which are sold competitively
and for which a market price can be established to be treated
as commercial services. This provision has permitted the
Government to purchase a myriad of services as commercial
                                                                  7

services. As discussed in Inspector General Report No. D-2001-
051 (see above), the General Accounting Office has given
agencies considerable discretion in determining which services
are commercial in nature. We oppose a change in the definition
without some showing that the current definition is inadequate.

In FY 2001 DoD acquired nearly $20 billion of commercial items
and services. The Department’s purchases of commercial items and
services was $12.5 billion in FY 2000. The 61 percent increase
in one year occurred with a relatively flat budget.


Section 404. Designation of Commercial Business Entities. The
proposal would allow a business entity that has 85 percent of
its sales to non-government customers to consider any item or
service it offers or sells to be a commercial item.

We oppose the proposed change. As is the case with sections 402
and 403, it is overly broad and would eliminate many essential
safeguards for the taxpayer. The proposal would require the
Government to consider many potentially military or government
unique items or services as commercial items. The determination
of whether an item or service is commercial or not would be
based not upon whether the item is sold or offered commercially,
but upon a ratio of commercial to non-commercial sales by the
business entity. It would permit items which are clearly not
commercial items, such as military unique spare parts, to be
acquired as commercial items, with none of the current statutory
or regulatory protections. Moreover, given the preference in
FASA for purchases of commercial items, the proposal would
require the acquisition of military or government unique
products because they qualify as commercial items according to
the criteria in the proposed definition. The Government would
have no option to purchase the items using other acquisition
methods.

The proposal also would allow contractors to manipulate what
is considered a commercial item by creating or reorganizing
business entities or allocating contracts to different business
entities in order to obtain commercial item status for what are
actually military unique products. For example, a company could
create a business entity which is responsible for manufacturing
all of its commercial and military aircraft. If the commercial
aircraft sales account for more than 85 percent of the entity’s
sales, the Government would be required to acquire military
unique aircraft, as a commercial item. We strongly oppose any
proposal which would permit the determination of what is a
commercial item to be based upon realignments of contracts and
organizational structures, which could be done solely for the
purpose of limiting Government oversight. We believe the
Congress used the appropriate criteria when it created the
commercial items preference, by requiring agencies to look to
the commercial marketplace to see whether an item is, will, or
is intended to be offered to the general public. The
                                                                  8

determination is based upon market research, not upon an
arbitrary ratio of commercial to non-commercial sales.

The proposal is drafted in such a manner that contractors could
make almost any contract for military unique items or services
exempt from oversight and the traditional safeguards that
Congress intended. A contractor can reorganize or reallocate
its contracts initially or annually so that the large contracts
for research or production of items would have to be acquired
under FAR Part 12. Once a contractor has sold an item as a
commercial item, it will likely argue the designation cannot be
changed.

We are unaware of any empirical data demonstrating that lower
contract prices or better products and services should result
from the “commercial business entity” approach.

Because of the TINA, the statutory prohibition on unallowable
costs, and audit access to records, DCAA audits saved the
Government $3.2 billion in FY 2001 because they precluded
overpricing on contracts for military unique items. The risk
is substantial that, by revising the commercial definition to
include a business entity with 85 percent commercial work, the
Government will pay more because we cannot use the established
safeguards. Contracts for which cost or pricing data is
required and contracts subject to the Cost Accounting Standards
(CAS) have been reduced by legislative changes in the 1990s. We
support adopting reasonable commercial approaches when there is
a healthy competitive marketplace. However, when buying unique
military weapons from a few dominant suppliers, we must
recognize that we cannot rely on competitive market forces that
do not exist. In the absence of market forces, any prudent
buyer, public or private, would want objective verification that
what is paid is reasonable. In those circumstances, the
Department, entrusted with billions in taxpayer dollars, has a
clear obligation to act as an “informed consumer” to the
greatest degree possible.

Also, even on large contracts that often exceed $1 billion,
such as military fighter aircraft acquisitions, many components
or services for the end item could become commercial items under
this legislative proposal. This is because many components are
acquired through intra-company transfers or purchases from
various business entities. The company can put all components
or services for the aircraft into a business entity that meets
the criteria in the proposed definition and the Government will
lose access to cost data for the items.

The proposal may also give a contractor that has been determined
to have a commercial business entity an unfair competitive
advantage over other contractors. FASA and FAR 12.101(b)
require agencies to acquire commercial items or nondevelopmental
items when they are available to meet the needs of the agency.
If the proposed definition of a business entity is adopted, a
                                                                  9

commercial entity would be awarded contracts and subcontracts
merely because it offers the only “commercial item” meeting the
buyer’s needs. Alternative sources that do not meet the sales
criteria in the proposed definition of a “commercial entity,”
could not compete.

Another reason for caution is that several recent audits have
shown that industry, with lax oversight from the Department,
has at times insisted that military unique items be acquired
as commercial items. Higher costs resulted. Inspector General,
DoD, Report No. D-2001-129, “Contracting Officer Determinations
of Price Reasonableness When Cost or Pricing Data were Not
Obtained,” May 30, 2001, shows examples of overpricing on pages
5, 6, 10, 11, and 17 where contractors improperly claimed
commercial item designations for military unique items acquired
on a sole-source basis. For example, page 17 shows how the
price of a military unique item for the F-14 Tomcat wing
fuselages increased from $55 to $800 (1,454 percent) because the
contractor claimed the item was commercial and refused to
provide cost and pricing data. Yet, the DoD is the only buyer
for this item. Overall, the report identified $23 million of
overpricing on 52 contracts. The proposed change would
legitimatize overpricing by eliminating the current safeguards
to prevent and identify overpricing. In addition, Inspector
General, DoD, Report No. D-2001-051, discussed in Section 403,
shows why FAR Part 12 contracts should not be used for acquiring
military unique research and development.


Section 405. Continuation of Eligibility of Contractor for
Award of Information Technology Contract after providing Design
and Engineering Services. This section states that a contractor
that provides architectural design and engineering services for
an information technology program is not, solely by reason of
having provided the services, ineligible for award of a contract
for procurement of information technology under that program or
for a subcontract under such a program. This provision would
change FAR Part 9.5’s organizational conflict of interest
provisions for service contractors. FAR Part 9.5 addresses the
legitimate needs of the Government to preclude conflicts of
interest. It also provides agencies adequate flexibility by
permitting conflicts to be waived if in the Government’s best
interest. The proposal treats information technology contracts
different for no apparent purpose and creates an unnecessary and
inappropriate exception to existing organizational conflict of
interest policies. Because of those concerns, we do not support
this section.


Section 406. Commercial Liability. This section mandates that
contracts for the acquisition of services or property contain
provisions that bar payment of consequential damages “in cases
of contractor liability with respect to the contract” and limit
“direct damages in case of contractor liability with respect to
                                                                10

the contract…not [to] exceed the cost of the service that was
not performed or the product that was not delivered….”

We oppose the provision. There is no definition of direct or
consequential damage, nor a definition or description of what
“with respect to the contract” means.   Parties to contracts
need to know precisely their respective obligations and
liabilities. Contractors need such information in order to
purchase adequate insurance to cover potential liabilities.

We oppose the bar to payment of consequential damages “with
respect to the contract” as it is unclear whether contractors
will be exempt from consequential damages only with respect to
the Government, or also to third parties who may be injured as
a result of negligence or malfeasance by the contractor or its
employees in performance of the contract. The Government should
be able to pursue consequential damages which result from a
contractor’s negligence or failure to perform. The provision
might bar the Government from establishing liquidated damages
which are based upon consequential damages from a contractor’s
failure to adequately perform. In some family quarters
maintenance contracts, for example, a contractor must repaint
a set of vacated family quarters within two days or it will be
assessed liquidated consequential damages for each additional
day the quarters are not available for occupancy. The
consequential damages are based on the government’s costs to
house a service member on the local economy. These damages
provide an incentive (and penalty) for the contractor to
complete the painting on time. We also oppose the limitation on
direct damages to the cost of the services not performed or the
product not delivered. The government’s damages should not be
so limited. A contractor might refuse to perform, and the
government’s recovery would be limited by the proposal’s damages
cap, irrespective of the additional costs to the government in
obtaining another contractor to perform the function at the last
moment.

We believe this provision does not provide an incentive for
quality performance by service contractors. We also question
why legislative relief is necessary, as there is case law
regarding a contractor’s liability for damages, to include
consequential damages. To the extent necessary, contractors
can continue to protect themselves through the purchase of
insurance.


Section 503 and 504. Certain Research and Development by
Civilian Agencies and Authority for Carrying Out Certain
Prototype Projects. These sections authorize civilian agencies
to use other transaction authority for research and prototypes.

The Department of Defense has had authority to use other
transaction authority for basic, applied and advanced research
since 1989, and for prototypes since 1994. The purpose of other
                                                                 11

transactions was to attract nontraditional Defense contractors
who had research or promising technologies of value to the
military, and who did not want to enter into a FAR contract,
cooperative agreement or grant. Consequently, the other
transaction, which bypasses many federal statutes and
regulations, was authorized to give the Department additional
flexibility in acquiring innovations and research. In time,
other transactions were also authorized for the development
of prototypes.

The DoD Inspector General has conducted a number of audits
regarding other transactions:

Inspector General, DoD, Report No. D-2001-115, “Audit of
Reconnaissance, Surveillance, and Targeting Vehicle Program,”
May 8, 2001

Inspector General, DoD, Report No. D-2000-070, “Evolved
Expendable Launch Vehicle Program Other Transactions,”
December 30, 1999 (Report is FOUO (“For Official Use Only”)
and copies may be obtained by authorized personnel by contacting
703-604-8937.)

Inspector General, DoD, Report No. D-2000-065, “Costs Charged
to Other Transactions,” December 27, 1999

Inspector General, DoD, Report No. 98-191, “Financial and Cost
Aspects of Other Transactions,” August 24, 1998

Inspector General, DoD, Report No. 97-114, “Award and
Administration of Contracts, Grants and Other Transactions
Issued by the Defense Advanced Research Project Agency,”
March 28, 1997

Based upon our most recent audits of prototype other
transactions, we have found that other transactions have
not attracted a significant number of nontraditional Defense
contractors to do business with the Government. Available
data for FY 1994 through FY 2001 illustrates this point.
Traditional Defense contractors have received 94.5 percent of
the $5.7 billion in funds for 209 prototype other transactions.

We find this trend disturbing, as other transactions do not
provide the government a number of significant protections,
ensure the prudent expenditure of taxpayer dollars, or prevent
fraud. Procurement statutes and the FAR provide contracting
officers the tools to negotiate fair and reasonable prices, and
to ensure that taxpayer dollars are expended for costs which
are allowable and consistent with federal procurement policies.
TINA, CAS, and the various audit provisions are among the tools
that have provided contracting officers’ visibility into
contractor costs and help the government ensure that prices
negotiated and eventually paid are reasonable. These provisions
have served the interests of the government and the taxpayer for
                                                                 12

many decades. Congress has given agencies the authority to
waive some of these protections, in certain circumstances, in
connection with FAR contracts. Thus, the current methods of
acquiring goods and services from contractors already provide
considerable flexibility to accommodate the needs of the
parties.

The traditional protections for the public trust do not exist,
for the most part, for other transactions. In only one
significant area, namely providing the Comptroller General
access to records in connection with prototype other
transactions in excess of $5 million, do other transactions
provide visibility into performance costs. Other measures for
ensuring visibility into costs and ensuring prices are
reasonable have not been enacted for other transactions.

Based upon the DoD experience, we believe other transactions
should be considered only when it is clear that the Government
is unable to acquire goods, services, and needed technologies
through existing vehicles. If other transactions are authorized
for civilian agencies, we strongly recommend such legislation be
tailored so that the other transactions vehicle is only used to
attract companies which have not traditionally done business
with the Government and for technologies, research capabilities
or other processes which are needed by the federal agency and
are not available through traditional acquisition vehicles.

For research other transactions, we recommend the agency head
be required to make a determination that an other transaction
is necessary to induce a nontraditional contractor to provide
technologies, research capabilities, or other processes which
are needed by the agency. The determination should also include
a finding that a contract, grant, or cooperative agreement are
not appropriate or feasible, and that waivers to TINA, CAS,
and other Federal statutes or procurement policies are not
sufficient. Other transactions for prototype should be limited
to developing items which are ripe for development as the result
of research conducted pursuant to a research other transaction.
We also recommend that audit access rights be given to the
Government, to include the Comptroller General, the agency
Inspectors General, and departmental contract audit agencies,
such as the Defense Contract Audit Agency.

If enacted, other transaction authority for civilian agencies
should be provided as a pilot program of limited duration to
ascertain whether it actually attracts significant numbers of
nontraditional government contractors, whether it results in
the acquisition of needed technologies and services, and
whether additional safeguards should be enacted.

We recommend for prototype other transactions that
Section 845(c) “Comptroller General Review” be extended to
include Inspectors General. This is a good management control
                                                               13

because it currently allows access to records to audit other
transactions.


Section 601. Simplified Acquisition Threshold (SAT)
Inflationary Adjustment. This section allows inflationary
adjustment of the SAT (currently $100,000) every 3 years.

Adjusting the SAT would have merit, but we suggest it be revised
in a different manner. For the TINA, FASA set the threshold at
$500,000, and the threshold is currently revised for inflation
every 5 years with minimum changes in multiples of $50,000. The
TINA is currently $550,000. We recommend the SAT be revised in
years divisible by 5 with changes in increments of at least
$10,000 based on the percentage change in inflation. This would
ensure changes to all thresholds would occur on a consistent
basis.
